NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
FEB 6 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
ARTHUR LOPEZ,

U.S. COURT OF APPEALS

No. 18-56452

Plaintiff-Appellant,

D.C. No. 8:17-cv-00488-VBFMRW

v.
NEWPORT BEACH POLICE
DEPARTMENT; et al.,

MEMORANDUM*

Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Valerie Baker Fairbank, District Judge, Presiding
Submitted February 4, 2020**
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

Arthur Lopez appeals pro se from the district court's summary judgment and
dismissal order in his 42 U.S.C. § 1983 action alleging malicious prosecution and
false arrest. We have jurisdiction under 28 U.S.C. § 1291. We review de novo.
Smith v. Almada, 640 F.3d 931, 936 (9th Cir. 2011) (summary judgment); Barren

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

v. Harrington, 152 F.3d 1193, 1194 (9th Cir. 1998) (order) (dismissal under
§ 1915(e)(2)(B)). We affirm.
The district court properly granted summary judgment on Lopez's malicious
prosecution and false arrest claims against defendant Vincelet because Lopez
failed to raise a genuine dispute of material fact as to whether Vincelet acted with
malice, and Lopez failed to overcome the presumption, created by the prosecutor
filing a criminal complaint, that Vincelet acted with probable cause. See Mills v.
City of Covina, 921 F.3d 1161, 1169 (9th Cir. 2019) (describing the elements of a
malicious prosecution claim); Smiddy v. Varney, 665 F.2d 261, 266 (9th Cir.
1981), overruled on other grounds by Beck v. City of Upland, 527 F.3d 853, 865
(9th Cir. 2008) (The filing of a criminal complaint establishes probable cause and
"immunizes investigating officers [] from damages suffered thereafter because it is
presumed that the prosecutor filing the complaint exercised independent judgment
in determining that probable cause for an accused's arrest exists at that time."); see
also Dubner v. City and County. of San Francisco, 266 F.3d 959, 964 (9th Cir.
2001).
The district court properly dismissed Lopez's Fourteenth Amendment equal
protection claim against Vincelet because Lopez failed to allege facts
demonstrating that Vincelet acted with a discriminatory purpose. See Lacey v.
Maricopa County., 693 F.3d 896, 920 (9th Cir. 2012) (an equal protection claim

2

18-56452

under the Fourteenth Amendment requires that the defendant was motivated by a
discriminatory purpose).
The district court properly dismissed Lopez's malicious prosecution claim
against defendant Miller because Lopez failed to allege facts sufficient to show
that Miller acted with malice. See Mills, 921 F.3d at 1169.
The district court properly dismissed Lopez's claims against the Newport
Beach Police Department and the City of Newport Beach because Lopez failed to
allege facts plausibly demonstrating an unconstitutional policy, practice, or act by
an official with policy-making authority. See Price v. Sery, 513 F.3d 962, 966 (9th
Cir. 2008) (setting forth elements of a municipal liability claim under § 1983).
The district court did not abuse its discretion in denying Lopez leave to
amend his complaint to add claims under 42 U.S.C. § 1985 because the
amendment was futile and allowing its addition would have caused prejudice to
defendant Vincelet. See Bowles v. Reade, 198 F.3d 752, 757-58 (9th Cir. 1999)
(setting forth standard of review and factors for denial of a motion to amend).
The district court did not abuse its discretion in denying Lopez leave to add
claims against Police Chief Jay Johnson because Lopez's proposed amended
complaint was not accompanied by a motion. See E.D. Cal. Civ. R. 15-1.

3

18-56452

Lopez's motion to take notice of California Penal Code § 166 and another
one of his cases in this Court, 18-55520, is granted. All other pending motions are
denied.
AFFIRMED.

4

18-56452

